No. 19-361
In the

Supreme Court of the United States
__________________

RENADO SMITH AND RICHARD DELANCY,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

__________________

BRIEF OF AMICUS CURIAE FLORIDA
ASSOCIATION FOR CRIMINAL DEFENSE
LAWYERS IN SUPPORT OF PETITION FOR
WRIT OF CERTIORARI
__________________
MICHAEL UFFERMAN
Counsel of Record
MICHAEL UFFERMAN LAW FIRM, P.A.
2022-1 Raymond Diehl Road
Tallahassee, FL 32308
(850) 386-2345
ufferman@uffermanlaw.com

DIANA L. JOHNSON
JOHNSON AND LUFRANO, P.A.
1010 East Adams Street
Suite 205
Jacksonville, FL 32202
(904) 513-3905
Diana@johnsonandlufrano.com

Counsel for Amicus Curiae
October 18, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
IDENTITY AND INTEREST OF
AMICUS CURIAE . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
FACDL requests that this Court grant the
Petitioner’s petition for writ of certiorari in order
to remedy the questions presented regarding the
legal application of when a witness is
unavailable for trial pursuant to the Sixth
Amendment’s Confrontation Clause . . . . . . . . . . 2
A. The Evolution of the absent witness rule. . . . 4
B. A circuit court split now exists and must be
examined to preserve this Court’s desire to
zealously protect an accuseds’ fundamental
right to a fair trial . . . . . . . . . . . . . . . . . . . . . . 7
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

ii
TABLE OF AUTHORITIES
CASES
Barber v. Page,
390 U.S. 719 (1968). . . . . . . . . . . . . . . . . . . . . . 4, 6
Greene v. McElroy,
360 U.S. 474 (1959). . . . . . . . . . . . . . . . . . . . . . . . 8
Mote v. U.S.,
178 U.S. 458 (1900). . . . . . . . . . . . . . . . . . . . . . . . 4
Ohio v. Roberts,
448 U.S. 56 (1980). . . . . . . . . . . . . . . . . . . 4, 5, 6, 7
Pointer v. Texas,
380 U.S. 400 (1965). . . . . . . . . . . . . . . . . . . . 3, 6, 7
United States v. Burden,
934 F.3d 675 (D.C. Cir. 2019) . . . . . . . . . 10, 11, 12
United States v. Lynch,
499 F.2d 1011 (D.C. Cir. 1974) . . . . . . . . . . . . . . 11
United States v. Smith,
928 F.3d 1215 (11th Cir. 2019). . . . . . . . . . . . 9, 12
CONSTITUTIONS
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . 1, 2, 3, 8
Fla. Const. art. I, § 16(a) (2017). . . . . . . . . . . . . . . . . 3

iii
OTHER AUTHORITIES
Raymond LaMagna, (Re) Constitutionalizing
Confrontation: Reexamining Unavailabilty and
the Value of Live Testimony, 79 S. Cal L. Rev.
1499 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 7

1
IDENTITY AND INTEREST OF
AMICUS CURIAE
The Florida Association of Criminal Defense
Lawyers (“FACDL”) is a non-profit organization with a
membership of over 1,300 attorneys and 29 chapters
throughout the state of Florida. Each of FACDL’s
members is a practicing criminal defense attorney. The
questions presented in this case have important
implications for all criminal jury trials conducted in the
state of Florida.1
SUMMARY OF THE ARGUMENT
Reasonable minds can differ. However, the law
should not be applied to the criminally accused in a
different manner based upon in which jurisdiction of
our Country they stand trial. Nor in which jurisdiction
- federal or state - they stand trial in the State of
Florida. The Confrontation Clause, derived from the
Sixth Amendment of the United States Constitution,
grants the criminally accused the right to face their
accusers in person, at trial. The issues in this case are:
1) whether the government makes a good-faith
effort to obtain a witness’s presence at trial if it

1

Amici certify that no counsel for any party authored this brief in
whole or in part, no party or its counsel made any monetary
contribution intended to fund the preparation or submission of this
brief and that no person or entity other than the amici or their
counsel made such a contribution. Amici certify that it notified the
parties via email of its intent to file an amicus brief in support of
this Court granting a writ of certiorari within the 10-day notice
described in U.S. Supreme Ct. R. 37.2(a), and both parties provided
written consent, which have been filed with the Court.

2
curtails its search for that witness because it
already has the witness’s deposition testimony;
2) whether the government makes a good-faith
effort to obtain a witness’s presence at trial if it
forgoes an “easy” investigative step that it has
“reason to believe” would procure the absent
witness; and
3) whether a witness is “unavailable” if the
government releases the witness from its
custody without making any arrangements to
secure the witness’s presence at trial.
In each issue there is a circuit court split as well as
a conflict with, or misapplication of, this Court’s
precedent. FACDL requests this Court grant review in
this case in order to remedy the inequitable legal
application of the Sixth Amendment right of the
criminally accused to face his or her accuser.
ARGUMENT
FACDL requests that this Court grant the
Petitioner’s petition for writ of certiorari
in order to remedy the questions presented
regarding the legal application of when a
witness is unavailable for trial pursuant to
the Sixth Amendment’s Confrontation
Clause.
Of all the Constitutional rights the criminally
accused have, after the right to a jury trial, the right to
confront the witnesses against them is among the most
important right. This Court has explained:

3
the right of confrontation [is] ‘one of the
fundamental guarantees of life and liberty,’ and
‘a right long deemed so essential for the due
protection of life and liberty that it is guarded
against legislative and judicial action by
provisions in the constitution of the United
States and in the constitutions of most, if not of
all, the states composing the Union.’
Pointer v. Texas, 380 U.S. 400, 404 (1965) (emphasis
added).
Indeed, the accuseds’ right to confront witnesses
against him or her is so very fundamental that the
State of Florida also incorporated it into its state
constitution; which reads “[i]n all criminal prosecutions
the accused shall . . . have the right . . . to confront at
trial adverse witnesses. . . “ Fla. Const. art. I, § 16(a)
(2017).
This Court opined “that the Sixth Amendment’s
right of an accused to confront the witnesses against
him is . . . fundamental . . . and is made obligatory on
the States by the Fourteenth Amendment.” Pointer,
380 U.S. at 403. This Court emphasized “the right of
the accused to be confronted with witnesses against
him must be determined by the same standards
whether the right is denied in a federal or state
proceeding. . .” Id. at 407. The issues presented in
Petitioner’s petition implicate this fundamental right
and should be heard by this Court.

4
A. The Evolution of the absent witness rule.
“The right to confrontation includes both the
opportunity to cross-examine [a witness] and the
occasion for the jury to weigh the demeanor of the
witness.” Barber v. Page, 390 U.S. 719, 725 (1968). As
with all rules, there lies an exception. In 1900, this
Court explained the government could use “the
deposition or statement of an absent witness. . . at the
final trial . . . when it does not appear that his absence
was due to the negligence of the prosecution.” Mote v.
U.S., 178 U.S. 458, 474 (1900).
In Barber, 390 U.S. at 724-25, this Court ruled “a
witness is not ‘unavailable’ for purposes of the
foregoing exception to the confrontation requirement
unless the prosecutorial authorities have made a goodfaith effort to obtain his presence at trial.” Twelve
years later, in Ohio v. Roberts, 448 U.S. 56, 75 (1980),
this Court opined:
[a]lthough it might be said that the Court’s prior
cases provide no further refinement of this
statement of the rule, certain general
propositions safely emerge. The law does not
require the doing of a futile act. Thus if no
possibility of procuring the witness exists, ‘good
faith’ demands nothing of the prosecution. But
if there is a possibility, albeit remote, that
affirmative measure might provide the
declarant, the obligation of good faith may
demand their effectuation. ‘The length to which
the prosecution must go to produce a witness…
is a question of reasonableness.’

5
Thus, in 1980, almost forty years ago, this Court set
out the current rule regarding an absent or unavailable
witness. This rule requires the prosecution bear the
burden of proving a witness is unavailable, wherein it
must establish that despite its good-faith efforts
undertaken prior to trial to locate and present that
witness the witness remains absent or unavailable. Id.
Since 1980 state and federal courts have attempted
to define the Roberts rule. However, after almost forty
years of “building on past decisions, drawing on new
experience[s], and responding to changing conditions,”
the state and federal criminal courts need guidance
from this Court “for certainty in the [everyday] world
of conducting criminal trials.” Roberts, 448 U.S. at 6566.
See also Raymond LaMagna, (Re)
Constitutionalizing Confrontation: Reexamining
Unavailabilty and the Value of Live Testimony, 79
S. Cal L. Rev. 1499, 1552 (2006) (explaining there
exists a “confusing, conflicting, and remarkably absurd
hodge-podge of precedent [] with each trial judge
becoming a constitutional convention unto
themselves”).
In today’s age of technology the way courts
determine unavailability and good faith should be
based upon the resources available and whether using
such resources would provide a reasonable lead to
procuring an absent witness for trial. In 1968 this
Court acknowledged the evolution of the government’s
burden to establish a witness is unavailable for trial
writing:
[i]t must be acknowledged that various courts
and commentators have heretofore assumed that

6
the mere absence of a witness from the
jurisdiction was sufficient ground for dispensing
with confrontation in the theory that ‘it is
impossible to compel his attendance, because the
process of the trial court is of no force without
the jurisdiction, and the party desiring his
testimony is therefore helpless.
Whatever may have been the accuracy of that
theory at one time, it is clear that at the present
time increased cooperation between the States
themselves and between the States and the
Federal Government has largely deprived it of
any continuing validity in the criminal law.
Barber, 390 U.S. at 723 (emphasis added).
Moreover, in Roberts, this Court, addressing the
juxtaposition of the admissibility of hearsay statements
with the Confrontation Clause, expressed “[t]rue to the
common-law tradition, the process has been gradual,
building on past decisions, drawing on new experience,
and responding to changing conditions.” 448 U.S. at
65. This remains true still today; and now requires
clarification and this Court’s guidance.
In fact, this Court once believed “the right of
confrontation . . . [was] so essential for the due
protection of life and liberty that it is guarded against
legislative and judicial action by provisions in the
constitution of the United States.” Pointer, 380 U.S. at
404.
Today, the right to confrontation is no longer
guarded against judicial action. The application of the
Confrontation Clause and the unavailability of a

7
witness now differs from state to state, federal circuit
to federal circuit. Since the Roberts rule, forty years
ago, there exists “[a] confusing, conflicting, and
remarkably absurd hodge-podge of precedent.”
Raymond LaMagna, (Re)Constitutionalizing
Confrontation: Reexamining Unavailabilty and the
Value of Live Testimony, 79 S. Cal L. Rev. 1499, 1552
(2006). “The lack of analytical guidance available to
trial courts [making] unavailability rulings severely
curtails the scope and consistency of [an accused’s]
confrontation rights.” Id. at 1558. This should not be
so. Therefore, this Court should grant certiorari to
provide lower courts in all jurisdictions with guidance
and clarification on the absent/unavailable witness
rule.
B. A circuit court split now exists and must be
examined to preserve this Court’s desire to
zealously protect an accuseds’ fundamental
right to a fair trial.
This Court has expressed:
[t]here are few subjects, perhaps, upon which
this Court and other courts have been more
nearly unanimous than in their expressions of
belief that the right of confrontation and crossexamination is an essential and fundamental
requirement for the kind of fair trial which is
this country’s constitutional goal.
Pointer, 380 U.S. at 405. This is because
[c]ertain principles have remained relatively
immutable in our jurisprudence. One of these is
that where governmental action seriously

8
injures an individual, and the reasonableness of
the action depends on fact findings, the evidence
used to prove the Government’s case must be
disclosed to the individual so that he has an
opportunity to show that it is untrue. While this
is important in the case of documentary
evidence, it is even more important where the
evidence consists of the testimony of individuals
whose memory might be faulty or who, in fact,
might be perjurers or persons motivated by
malice, vindictiveness, intolerance, prejudice, or
jealousy. We have formalized these protections
in the requirements of confrontation and crossexamination. They have ancient roots. They
find expression in the Sixth Amendment which
provides that in all criminal cases the accused
shall enjoy the right ‘to be confronted with the
witnesses against him.’ This Court has been
zealous to protect these rights from erosion.
Greene v. McElroy, 360 U.S. 474, 496–97 (1959).
Despite this Court’s desire to zealously protect our
country’s constitutional goal of an accused’s
fundamental right to a fair trial and the right of the
accused to confront his or her witnesses at trial, there
currently exists a split in authority from the circuits.
As such, depending on in which jurisdiction an accused
is being tried, the legal application of the Sixth
Amendment’s confrontation clause differs.
The central facet of the Eleventh Circuit Court of
Appeals’ decision is that the government made a goodfaith effort to procure Vixama – a critical witness - for
trial before declaring her unavailable and moving to

9
use her video deposition at trial. United States v.
Smith, 928 F.3d 1215 (11th Cir. 2019). It opined the
government made a good faith effort by doing the
following in preparation for an April 17, 2017, trial
date: on February 7, 2017, the case agent learned
Vixama was released from federal custody on February
6, 2017. Id. The agent then contacted her uncle,
obtained his address, and provided this information to
ICE. Id. ICE went to the provided address on
February 21, 2017, searched it to no avail, and the case
agent followed up in March. Id. At that time he was
told ICE did not have the manpower to continue its
search for Vixama. Id.
The week before trial and the week of trial, the case
agent reached out to Vixama’s former attorney four
times, issued a subpoena for her via the former
attorney, and “thrice attempt[ed] to communicate with
Vixama using her boyfriend’s cell phone number. Id.
The court opined the government made a “good faith
effort” in spite of testimony that the case agent
admitted, at least in part, he curtailed his search for
Vixama because the government already had her
deposition testimony, and though it abstained from
conducting an “easy” investigative step that it had
“reason to believe” would procure Vixama’s presence at
trial, and though Vixama was a witness the
government months earlier released from its custody
without making any arrangements to secure her
presence at trial. Id.
The United States Court of Appeals for the
Eleventh Judicial Circuit has jurisdiction over federal
cases originating in three (3) states - Alabama, Florida

10
and Georgia. “The circuit includes nine district courts
with each state divided into Northern, Middle and
Southern Districts.”2 According to the United States
Census Bureau, the population in each state
encompassed by the Eleventh Circuit is as follows:
Florida: over 21 million persons3;
Georgia: over 10 and a half million persons4;
Alabama: almost 5 million persons5.
If the Eleventh Circuit’s decision is left as the new
precedent on the proper application of the criminally
accuseds’ right to face his or her accuser, more than 36
million persons living in the United States will be
governed by the divided decision of the Eleventh
Circuit Court of Appeals.
Only the month after this decision of which
Petitioners seek review, the District of Columbia
Circuit Court held the government failed to meet its
burden of proving a witness was unavailable for
purposes of the Confrontation Clause. In United States
v. Burden, 934 F.3d 675 (D.C. Cir. 2019), much like in
this case, the parties agreed that the defendants had
an opportunity to cross-examine the witness; “[t]he sole
question on appeal [was] whether he was ‘unavailable’
for purposes of the Confrontation Clause.” Id. at 686.
After the witness provided his statement he was

2

http://www.ca11.uscourts.gov /about-court

3

https://www.census.gov/quickfacts/FL

4

https://www.census.gov/quickfacts/GA

5

https://www.census.gov/quickfacts/AL

11
deported; however, the government failed to ensure his
presence at trial before he left the United States. Id.
Citing to its prior precedent6, the D.C. Circuit
explained good-faith, but non-exhaustive efforts to find
a witness were inadequate to render a witness
unavailable for trial. Id. It also reiterated that the
government:
bears the burden of establishing that its
unsuccessful efforts to procure the witness’s
appearance at trial were ‘as vigorous as that
which the government would undertake to
[secure] a critical witness if it has no [prior]
testimony to rely upon in the event of
‘unavailability.’
Id. citing Lynch, 499 F.2d at 1023.
The D.C. Circuit warned that “[f]ailing to factor the
government’s own contribution to the witness’s absence
into the Confrontation Clause analysis would warp the
government’s incentives.” Burden, 934 F.3d at 686.
The court ultimately held “[b]ecause the government’s
omissions place its efforts below the standard the
Confrontation Clause demands, we need not decide
precisely how the government should have sought to
prevent the witness becoming unavailable.” Id. at 699.
It further held “that the duty to use reasonable means
to procure a witness’s presence at trial includes the
duty to use reasonable efforts to prevent a witness from
becoming absent in the first place.” Id.

6

United States v. Lynch, 499 F.2d 1011 (D.C. Cir. 1974).

12
The Eleventh Circuit’s opinion was released on July
2, 2019. United States v. Smith, 928 F.3d 1215 (11th
Cir. 2019). The D.C. Circuit’s opinion was released on
August 20, 2019. Burden, 934 F.3d 675. Yet, the two
opinions, relying on the same Confrontation Clause and
body of law, reached two drastically different holdings.
In addition, as Petitioners explain in the Petition, the
Eleventh Circuit’s majority opinion conflicts with five
of the twelve other circuits as to the first question
presented (Pet. p.13), three as to the second question
presented (Pet. p.17), and five as to the third question
presented. (Pet. p. 22).
Furthermore, the Eleventh Circuit has twelve (12)
active judges and seven (7) senior judges.
In
Petitioners’ case, only three (3) of those judges heard
the case. Even the three judges whom heard the case
could not agree on the application of the Confrontation
Clause. Relying on the same cases, the three-judge
panel came to completely different conclusions as to
each issue Petitioner now seeks this Court’s review. As
such, there exists not only a circuit split, but also a
divided decision of first impression in the Eleventh
Circuit Court of Appeals.7
The trial at issue occurred in 2017, in the age of
smartphones, electronic tablets, and smart watches,
where almost any information is accessible with the
push of the “on” button to the average person. Law
enforcement has access to technology that it simply did
not have forty years ago, such as acoustic gunshot
detection systems, body-worn cameras, drones, an
7

Both the majority and dissent reference this case is one of first
impression in its circuit.

13
infinite number of electronic databases, as well as the
ability to collaborate with law enforcement offices
nationwide. 8
Because circuits are split as to what constitutes an
unavailable witness and what “good-faith” effort
necessitates, this Court should grant certiorari review
to assure the continued protection of our country’s
constitutional goal of the fundamental right to a fair
trial. By granting the petition this Court will have the
opportunity to control and clarify the constitutional
principle of the Confrontation Clause as well as provide
necessary guidance, as established by the current
circuit court splits, to the federal and state courts.
CONCLUSION
The Petitioner’s petition for a writ of certiorari
should be granted.
Respectfully submitted,
Michael Ufferman
DIANA L. JOHNSON
Counsel of Record
JOHNSON AND LUFRANO, P.A.
MICHAEL UFFERMAN LAW FIRM, P.A. 1010 East Adams Street
2022-1 Raymond Diehl Road
Suite 205
Jacksonville, FL 32202
Tallahassee, FL 32308
(904) 513-3905
(850) 386-2345
Diana@johnsonandlufrano.com
ufferman@uffermanlaw.com
Counsel for Amicus Curiae
October 18, 2019

8

https://www.thebalancecareers.com/technologies-that-arechanging-the-way-police-do-business-974549

